SEMIANNUAL
Report to Congress

October 1, 2009 to March 31, 2010


      811 Vermont Avenue, N.W. Suite 978
            Washington, DC 20571
Telephone 202.565.3908 - Facimile 202.565.3988
The Export-Import Bank of the United States
(Ex-Im Bank/Bank) is the official export credit agency of the United States. The
mission of the Bank is to assist in financing the export of U.S. goods and services
to international markets. Ex-Im Bank enables U.S. companies — large and small
— to turn export opportunities into sales that helps to maintain and create U.S.
jobs and contribute to a stronger national economy. In fiscal year 2009, the Bank
authorized transactions totaling $21 billion. Ex-Im Bank is an independent execu-
tive agency and a wholly owned U.S. government corporation that is celebrating
75 years of service to the nation in 2009. Information about the Bank is available
at www.exim.gov.



The Office of lnspector General
(OIG) was organized in 2007 as an independent office within Ex-Im Bank to sup-
port its mission and goals by detecting and responding to fraud, waste, and abuse
involving Ex-Im Bank programs and personnel and to promote economy and
efficiency in operations. The Inspector General Act of 1978 charges the Inspector
General with responsibility for conducting audits, inspections, and investigations.
The Inspector General keeps the Chairman of Ex-Im Bank and Congress fully and
currently informed about problems and deficiencies relating to the administration
of Ex-Im Bank programs and operations.



Online Availability
Reports of OIG audits, evaluations, and other activities are available at www.exim.
gov/oig. Information about the responsibilities of Inspectors General across the
U.S. government can be found at www.ignet.gov.



Additional Copies
For additional copies of this report or those from prior periods, write:

Office of Inspector General
Export-Import Bank of the United States
811 Vermont Ave. N.W.
Washington D.C. 20571
Or call: (202) 565-3908
OSVALOO L. GRATACOS               EXPORT-IMPORT BANK
ACTING IN SPECTOR GENERAL         OFTHE UNITED STATES


                                        April 30, 2010

Fred P. Hochberg
Chairman and President
Export-Import Bank of the U.S.
811 Vermont Avenue, N.W.
Washington, DC 20571

Dear Chairman Hochberg:

This Semiannual Report to Congress of the Office of Inspector General (OIG) of the Export-
Import Bank of the United States (Ex-1m Bank) summarizes the work of the OIG during the
reporting period of October 1, 2009 to March 31, 2010. During this time, OIG staff
completed significant audits and investigations of Ex-1m Bank programs and operations,
while laying the groundwork for expanded operations in the future. The rapid and effective
development of this office is particularly important in view of Ex-1m Bank's lead ing role in
responding to the decrease in private sector export funding resulting from the international
financial crisis and its crucial role in the recently unveiled National Export Initiative.

The reporting period is highlighted by the following accomplishments:

    1. Twelve arrests, indictments, and informations produced by this office
    2. Ex-1m Bank cost savings arising from investigative work in collaboration with Ex-1m
       Bank management exceeded $6.5 million
    3. Ex-1m Bank's financial statement audit
    4. Fiscal Year 2009 Information Security Program and Practices and Technical
       Configuration Reviews

I am very proud of the fine work of the OIG leadership team of Jean Smith, Assistant
Inspector General for Audits, and Larry Va lett, Assistant Inspector General for
Investigations, in achieving the results described in this report. I look forward to providing
future reports to Congress of the expanding work of this new office as it accomplishes the
OIG mission within Ex-1m Bank.




Osvaldo L. Gratacos
Acting Inspector General




                  811 Vermont Avenue, N . W. Washington, D .C.           20571
                                   Semiannual Report to Congress   1


OVERVIEW
The Office of Inspector General (OIG) is an independent
office within the Export-Import Bank of the United States
(Ex-Im Bank) that supports Ex-Im Bank’s mission and goals
by working to promote economy and efficiency in Ex-Im
Bank operations while preventing, detecting, and
responding to fraud, waste, and abuse involving Ex-Im Bank
programs and operations. The Inspector General Act of 1978
(IG Act), as amended, charges the Inspector General with
responsibility    for   conducting    audits,   evaluations,
inspections, and investigations and keeping the Chairman of
Ex-Im Bank and Congress fully and currently informed
about problems and deficiencies relating to the
administration of Ex-Im Bank programs and operations.

The Ex-Im Bank OIG, initially organized in August 2007, has
a staff of ten career professionals (five criminal investigators,
three auditors, an attorney, and an administrative specialist).
Since October 7, 2009, Deputy Inspector General and
Counsel, Osvaldo L. Gratacos, has served as Acting Inspector
General. During this period, Ex-Im OIG has increased audit,
evaluation, and investigative activity, a trend expected to
continue in succeeding reporting periods.
    2     Office of Inspector General


In addition to the audits and investigations described in the
following sections of this report, activities during this period
included the following:

       Meet regularly with Ex-Im Bank’s Office of General Counsel and Asset
        Management Division staff to discuss referrals to the OIG of claims and other
        matters where evidence indicating the possibility of fraudulent acts has been
        identified and to coordinate with Bank staff in support of OIG investigations.

       Evaluate the feasibility of conducting onsite inspections throughout all phases of
        Ex-Im Bank transactions to assess transaction integrity and conformity to
        applicable laws and representations made to Ex-Im Bank.

       Expand the responsibilities of the Counsel to the Inspector General to include
        the role of Deputy Inspector General to ensure continuity of leadership when the
        Inspector General stepped down in October 2009.

       Address several matters of common interest with Ex-Im Bank’s Audit Committee
        in a mutually supportive manner consistent with the independence of the OIG
        and a positive relationship with Ex-Im Bank. The OIG also met with the
        contractor selected by the Audit Committee to provide internal audit services for
        Ex-Im Bank.

       Develop the full range of written policies required to support the operations of
        the OIG in the areas of strategic goals, audits, investigations, staff performance
        goals and reviews, and general administrative matters.

       Participate in monthly meetings with Inspectors General of other agencies
        responsible for regulating the U.S. financial sector to discuss issues of common
        interest, including agency and inspector general responses to the international
        financial crisis.

       Assist Ex-Im Bank leadership in assessing ways to improve programs and
        operations in anticipation of Ex-Im Bank’s role as part of the National Export
        Initiative unveiled by President Obama during his State of the Union address.

       Participate in the Council of Inspectors General on Integrity and Efficiency efforts
        in proposing legislative changes to the Paperwork Reduction Act, IG Reform Act,
        and IG Subpoena Authority bill.
                                               Semiannual Report to Congress      3


Summary of Activities
As required by the IG Act, an activity summary of the audits,
evaluations, requests from Congress, Hotline complaints,
and fraud investigation referrals addressed by Ex-Im Bank
OIG for this reporting period follows.

AUDITS AND EVALUATIONS
The Office of Audit completed two audits during the six months ended March 31,
2010:

   1. Ex-Im Bank’s Financial Statements for Fiscal Year 2009

   2. Fiscal Year 2009 Information Security Program and Practices and Technical
      Configuration Reviews

At the end of the reporting period, the Office of Audit had two reviews in process:

   1. Sponsored Transactional Travel Audit

   2. Follow-Up of Medium Term Export Credit Program Audit Recommendations


Audits Issued During Period

      Audit of the Export-Import Bank’s Financial Statements for Fiscal Year
      2009 (OIG-AR-10-01, November 13, 2009)
      http://www.exim.gov/oig/documents/Audit_fiscal_year2009_FinancialStatements.pdf

             An independent public accountant (IPA), working under OIG
             supervision, conducted an audit of Ex-Im Bank’s financial statements
             for fiscal year (FY) 2009. The IPA issued an unqualified opinion on
             Ex-Im Bank’s financial statements and reported that no material
             weaknesses were identified and found no reportable noncompliance
             with laws and regulations.

             During the annual financial statement audit, the IPA noted certain
             deficiencies related to Ex-Im Bank’s internal control over financial
             reporting and other matters. Seven recommendations were made to
4   Office of Inspector General

            correct the deficiencies. The recommended actions to strengthen
            controls were as follows:

            1. Remove administrative access from users of a major system
               where daily job responsibilities are not required and actively
               monitor administrative level access privileges.
            2. Automate the process of preparing and summarizing cash flows,
               perform a detailed review of the cash flow models in advance of
               time when the re-estimate calculation is performed, and utilize a
               data integrity checklist to assist in the detailed review to check for
               formulaic and linkage issues.
            3. Correct the software to ensure that expired contracts are properly
               removed.
            4. Improve the level of review of the capitalized interest calculations
               and related journal entries.
            5. Perform a roll forward reconciliation of the allowance for credit
               losses balance and perform an analysis of each significant
               component within the roll forward at a level of precision necessary
               to identify any significant error.
            6. Complete the confirmation process prior to the date when audit
               confirmations are prepared. Improve processes and procedures to
               ensure that Ex-Im Bank is timely notified of changes affecting its
               portfolio.
            7. Automate the process of allocating insurance receipts to the proper
               cohort in the financing account to reduce the number of
               unallocated items.

            OIG issued a summary of the findings and recommendations and
            management’s responses in the report Fiscal Year 2009 Financial
            Statement Audit – Management Letter Excerpt (OIG-AR-10-03, March
            9, 2010)
            http://www.exim.gov/oig/documents/management_letter_web_posting.pdf


     Fiscal Year 2009 Information Security Program and Practices and
     Technical Configuration Reviews (OIG-AR-10-02, January 25, 2010)

            The Federal Information Security Management Act (FISMA) requires
            an annual independent evaluation of Ex-Im Bank’s information
            security program and practices. The OIG contracted with an IPA to
            determine whether Ex-Im Bank met FISMA requirements and to
            evaluate Ex-Im Bank’s privacy program and privacy impact
            assessment process. The audit also included a supplemental
            technical review that consisted of performing internal and external
                                           Semiannual Report to Congress     5

          network vulnerability assessments and analyzing configurations
          against the appropriate guidance.

          The audit found that Ex-Im Bank adequately addressed many FISMA
          requirements, including:

                Addressing all findings issued as part of the prior year FISMA
                 audit
                Completing the certification and accreditation for the
                 infrastructure general support system
                Selecting and testing required minimum security controls
                Developing and testing contingency plans for all three major
                 systems
                Maintaining an adequate Plan of Action and Milestones process
                Developing incident reporting policies and procedures
                Implementing Federal Desktop Core Configuration security
                 settings.

    While the above are positive efforts, additional action is needed to comply
    fully with guidance issued by the Office of Management and Budget and the
    National Institute of Standards and Technology. The audit made four
    recommendations that should strengthen Ex-Im Bank’s information security.

    Because this report addresses issues associated with information security at
    Ex-Im Bank, the OIG did not make the report available on-line.


On-going Audits

    Sponsored Transactional Travel Audit

          The OIG is completing audit fieldwork to evaluate Ex-Im Bank’s
          policies and procedures for sponsored transactional travel. The audit
          objectives are to determine whether nonfederal sponsored
          transactional travel:

          1. Policies and procedures comply with federal regulations,
          2. Controls are adequate to ensure compliance with regulations, and
          3. Policies and procedures on the collection of reimbursements are
             adequate.

          Audit work commenced in January 2010. The OIG anticipates issuing
          an audit report in June 2010.
6   Office of Inspector General

     Follow-Up of Medium Term Export Credit Program Audit
     Recommendations

            The OIG contracted with an IPA to perform audit follow-up to
            determine whether corrective action taken by management on findings
            and recommendations previously reported in the following two
            Medium Term Export Credit Program audit reports were fully
            implemented.

            Medium Term Export Credit Program – Information Technology (IT)
            Systems, Support and Governance (OIG-AR-09-05, June 12, 2009)
            http://www.exim.gov/oig/documents/MTITauditreportfinal.pdf

            Medium Term Export Credit Program – Credit and Fraud Risk
            Management and Business Process Improvement (OIG-AR-09-04,
            March 30, 2009)
            http://www.exim.gov/oig/documents/MT_Program_Business_Process_
            Final_Audit_Report.pdf

            At the end of this reporting period, the IPA was in the planning phase
            of the audit.


Government Accountability Office (GAO)

     The IG Act states that each Inspector General shall give particular regard to
     the activities of the Comptroller General of the United States with a view
     toward avoiding duplication and ensuring effective coordination and
     cooperation. During this period, the GAO referenced Ex-Im Bank in two
     GAO reports:

     IRAN SANCTIONS: Complete and Timely Licensing Data Needed to
     Strengthen Enforcement of Export Restrictions (GAO-10-375, March 2010)

            This report referenced the Iran Sanctions Act, which allows the
            president to sanction persons who provide Iran with goods,
            technology, or services if they know that doing so would contribute
            materially to Iran’s ability to acquire or develop (1) chemical,
            biological, or nuclear weapons or related technologies or (2)
            destabilizing numbers and types of advanced conventional weapons.
            The Act requires the president to impose at least two of several
            sanctions. One of the sanctions is denying assistance from Ex-Im
            Bank for exporting to foreign persons.
                                             Semiannual Report to Congress      7

      INTERNATIONAL TRADE: Observations on U.S. and Foreign Countries’
      Export Promotion Activities (GAO-10-310T, December 9, 2009)

            GAO’s testimony before the U.S. Senate Subcommittee on
            International Trade, Customs, and Global Competitiveness,
            Committee on Finance, presented observations about U.S. export
            promotion efforts expressed in reports from 2006 to 2009 and
            observations about foreign export promotion activities. This testimony
            referenced conclusions that Ex-Im Bank has taken positive steps
            toward determining the number of transactions that directly benefit
            small business, and improving the system for estimating the value of
            direct small business support for transactions in which the exporter is
            not known at the time that Ex-Im Bank authorizes the transaction.

            GAO has also referenced Ex-Im Bank’s need to improve performance
            monitoring.

            [See GAO’s reports: Export Promotion: Export-Import Bank Has Met
            Target for Small Business Financing Share, (GAO-08-419T, January
            17, 2008) and Export-Import Bank: Performance Standards for Small
            Business Assistance Are in Place but Ex-Im Is in the Early Stages of
            Measuring Their Effectiveness, (GAO-08-915, July 17, 2008).]

Audit Follow-Up

Recommended actions remain open on two audits reported in the previous
Semiannual Report:

      Medium Term Export Credit Program – Credit and Fraud Risk
      Management and Business Process Improvement (OIG-AR-09-04,
      March 30, 2009).
      http://www.exim.gov/oig/documents/MT_Program_Business_Process_Final_
      Audit_Report.pdf

            Of the eight recommendations, management stated that it had
            completed action on one recommendation and was either making
            substantial progress in implementing the specific recommendations or
            pursuing alternatives that Ex-Im Bank believes will effectively address
            the report’s findings. Management anticipates that most, if not all, of
            the recommendations will be closed within six months.
8   Office of Inspector General
            The remaining seven recommendations are open:

               1. Require onsite inspections and appraisals of equipment being
                  exported for medium term (MT) transactions as part of the
                  credit underwriting due diligence.
               2. Make payment frequency consistent with local country norms,
                  most of which require monthly payments.
               3. Institute a formal lender oversight function.
               4. Revamp Ex-Im Bank’s exposure fee pricing structure for
                  nonsovereign MT Program transactions to more effectively
                  account for transaction-level risk.
               5. Evaluate the impact of implementing a greater degree of risk
                  sharing or other incentives for nonsovereign transactions.
               6. Develop procedures to improve the turnaround time in
                  processing applications.
               7. Develop a strategic plan for the MT Program.

     Medium Term Export Credit Program – Information Technology (IT)
     Systems, Support and Governance (OIG-AR-09-05, June 12, 2009)
     http://www.exim.gov/oig/documents/MTITauditreportfinal.pdf

            Management reported that corrective action had been completed on
            four of the five recommendations. The remaining open
            recommendation is to develop an IT Strategic Plan aligned with the
            Medium Term Program business plan.
                                                Semiannual Report to Congress      9


INVESTIGATIONS AND HOTLINE ACTIVITY

Milestones and Noteworthy Accomplishments

The Office of Investigations achieved several milestones in
meeting mission objectives to investigate trade finance and
export credit fraud impacting Ex-Im Bank
The following actions have occurred in ongoing investigations resulting from
investments made by the Office of Investigations in training, infrastructure, and in
law enforcement resources:

   Achieving $6,518,958 in cost savings for Ex-Im Bank stemming from referrals of
    active investigative information

   Expanding the fraud investigations case portfolio to 410 individual claims paid by
    Ex-Im Bank, representing more than $327 million

   Obtaining six criminal indictments, five criminal informations, and one civil
    complaint for forfeiture against subjects of ongoing investigations worked jointly
    with the Federal Bureau of Investigation (FBI) and other law enforcement
    agencies

   One arrest made by the FBI pursuant to ongoing joint investigative operations
    with the Ex-Im Bank OIG

   Two federal search warrants executed against subjects in ongoing investigations

   Three investigative matters referred to the Department of Justice for prosecutive
    decision

   Four plea agreements signed by subjects pursuant to ongoing investigative
    matters

   Eighty referrals of investigative information to Ex-Im Bank Office of General
    Counsel concerning potential fraud and funds at risk to support enhanced due
    diligence efforts in approving, processing, and monitoring export credit loan
    guarantees and insurance policies
 10    Office of Inspector General

Summary of Investigations

The Office of Investigations evaluates all referrals of possible fraud or illegality
affecting Ex-Im Bank or its programs and activities. Such referrals are received
from a variety of sources—Ex-Im Bank employees, Ex-Im Bank Office of General
Counsel, participants in Ex-Im Bank transactions, other government agencies, and
the OIG Hotline. Evaluations that identify reasonable indications of possible fraud
or illegality result in an investigation. These investigations are summarized in the
table below.

  Summary of Investigative Activity              Investigations         No. of       Net Amount
             During Period                           Totals            Claims*       of Claims**
 Investigations open as of
                                                         35               369       $306,003,496
 October 1, 2009
 Opened during period                                    7                52          $32,916,611

 Closed during period                                   (7)              (11)       ($11,077,974)
 Investigations open as of
                                                         35                410       $327,842,133
 March 31, 2010
  *The number of claims subject to investigation. Not all investigations involve claims paid by Ex-Im
 Bank. The referral of a claim to the OIG for investigation does not establish the existence of fraud,
 and not all claims included in a case under investigation are necessarily fraudulent until proven so
 by evidence developed in the investigation. The number of claims may vary during the course of
 an investigation as facts and findings develop.

 **The net amount of claims may vary between reporting periods as post-default interest accrues
 and collection expenses are incurred and as Ex-Im Bank recovers funds through its civil collection
 efforts. Accordingly, the net dollar amount of claims reported is subject to fluctuation between
 reporting periods.
                                                        Semiannual Report to Congress             11

The following table breaks down the 410 claims that are currently the focus of open
investigations by the Ex-Im Bank OIG by the fiscal years in which the transactions
were authorized (which would generally be the year in which any associated fraud
was committed). The period between the date a transaction is authorized and any
claim resulting from fraudulent activity can range from a few months to many years.


                  Year Transaction                No. of          Net Amount Of
                     Authorized                  Claims*             Claims**
                 2000 and earlier                   17                 $8,296,489
                 2001                               24                $26,974,479
                 2002                               43                $19,629,765
                 2003                               81                $55,540,920
                 2004                              138               $156,349,293
                 2005                               48                $28,241,640
                 2006                               36                $22,617,446
                 2007                               16                 $5,903,563
                 2008                                7                 $4,288,538
                 TOTAL                             410               $327,842,133
*The number of claims subject to investigation. Not all investigations involve claims paid by Ex-Im
Bank. The referral of a claim to the OIG for investigation does not establish the existence of fraud,
and not all claims included in a case under investigation are necessarily fraudulent until proven so by
evidence developed in the investigation. The number of claims may vary during the course of an
investigation as facts and findings develop.

**The net amount of claims may vary between reporting periods as post-default interest accrues and
collection expenses are incurred and as Ex-Im Bank recovers funds through its civil collection efforts.
Accordingly, the net dollar amount of claims reported is subject to fluctuation between reporting
periods.
 12   Office of Inspector General

Summary of Investigative Results

The Office of Investigations obtained the following actions during this reporting
period.

 Results of Prosecutive Actions,        Ex-Im OIG          Joint
                                                                            Totals
 October 1, 2009–March 31, 2010           Only        Investigations*
 Matters referred to Dept. of Justice        2                1                3
 Criminal indictments / informations
                                             0               12               12
 / complaints
 Convictions / settlements /
                                             0                4                4
 judgments**
 Prison time (including time
                                             0                0                0
 suspended)
 Probation                                   0                0                0

 Community service                           0                0                0
 Fines and recoveries (including
                                             0                0                0
 civil)
 Results of Administrative              Ex-Im OIG          Joint
                                                                            Totals
 Actions                                  Only        Investigations*
 Suspensions                                 0                0                0

 Debarments                                  0                0                0

 Compliance agreements                       0                0                0
 Other administrative/disciplinary
                                             0                0                0
 actions
 Administrative recoveries,
                                        $1,000,000       $5,518,958      $6,518,958
 repayments, cost savings
       * With another federal agency
       ** Includes plea agreements




Hotline Activity

The Ex-Im OIG maintains a Hotline reachable by telephone, e-mail, or mail to
receive reports of fraud, waste, and abuse in Ex-Im Bank programs and operations.
Hotline reports are evaluated by OIG’s investigative team and may result in the
                                                 Semiannual Report to Congress         13

initiation of an investigation, referral to other law enforcement authorities having
jurisdiction, or referral to management for administrative action.

The OIG received seven Hotline reports during the reporting period. Four were
referred for investigation, and three were addressed without further referral. One
pending Hotline complaint that had been under review as of the last reporting period
was addressed without further referral, and another pending complaint was referred
for investigation. Hotline reports can be made by phone at 1-888-EXIM-OIG (1-888-
644-3946), by e-mail to IGhotline@exim.gov, or by mail or delivery service to Ex-Im
Bank OIG Hotline, Office of Inspector General, 811 Vermont Ave., N.W.,
Washington, DC 20571. The OIG will not disclose the identity of persons making a
report through the Hotline without their consent unless the Inspector General
determines that such disclosure is unavoidable during the course of an
investigation.




Criminals Use an Array of Methods to Defraud Ex-Im Bank
Two of Ex-Im Bank’s key programs—the loan guarantee program and the export
credit insurance program—have been particularly susceptible to fraud schemes by
foreign borrowers, U.S.-based exporters, and others, including deal brokers
commonly referred to as “agents” or “finders” who assist in arranging the
transactions and shipments. These two programs account for most of the
investigations currently under way. Criminal activity exploits certain processes
within the programs in order to induce Ex-Im Bank to approve fraudulent loan
guarantees or insurance coverage.

          Loan Guarantee Program. Ex-Im Bank assists exporters by
           guaranteeing term financing from a commercial lender to creditworthy
           international buyers, both private and public sector, for purchases of U.S.
           goods and services. Ex-Im Bank’s guarantee of a lender’s loan to an
           international buyer is used to finance purchases of U.S. goods and
           services. Criminals have submitted false financial statements of foreign
           borrowers in order to induce Ex-Im Bank to provide its guarantee
           coverage for a loan for which the borrowers might otherwise be ineligible,
           and by submitting false documentation to the guaranteed lender and Ex-
           Im Bank regarding the shipment, nature, or quantity of the U.S. goods
           allegedly being exported.

The following investigative results reported this period occurred within the loan
guarantee program.
14   Office of Inspector General


     Colombian National Pleads Guilty to Role in Defrauding Ex-
     Im Bank of More Than $1 Million

     On November 20, 2009, Febe Durango-Rueda pleaded guilty to participating
     in a scheme to defraud Ex-Im Bank of more than $1 million. Durango was
     arrested by special agents of the Ex-Im Bank OIG on May 4, 2009, at Miami
     International Airport while attempting to enter the United States. According
     to plea documents, Durango was the president of Droservicios Ltda., a
     Colombian medical services company. Durango admitted that she and
     others falsified financial statements that Droservicios submitted to Ex-Im
     Bank in support of a loan guarantee for a deal worth more than $1.3 million.

     Durango and others applied for an Ex-Im Bank loan guarantee that purported
     to be for the purpose of increasing Droservicios’ leasing services of
     specialized medical equipment to public health institutions. Durango
     admitted that she and others then shipped medical equipment of much lesser
     value than the equipment that was the basis for the Ex-Im Bank guaranteed
     loan and fabricated invoices to fraudulently reflect that the specialized
     medical equipment was purchased and shipped. Durango and others shared
     the difference in the loan amount and the purchase price of the equipment
     that was actually purchased and shipped. According to court documents,
     Durango and others then allowed the loan to default, triggering Ex-Im Bank’s
     obligation to cover the debt. Ex-Im Bank paid more than $1.3 million to
     satisfy the guarantee.

     Durango faces a maximum sentence of five years in prison and a $250,000
     fine. Durango has agreed to pay $139,064 in forfeiture and make full
     restitution in the amount of $1,332,081. Durango’s sentencing date is
     pending.

     The scheme was discovered by Ex-Im Bank staff in October 2006 and
     referred to Ex-Im Bank OIG in 2007 for further investigation. The case is
     being prosecuted by the Department of Justice Criminal Division’s Fraud
     Section. The case is being investigated by Ex-Im Bank OIG and the U.S.
     Postal Inspection Service.
                                       Semiannual Report to Congress      15


Mexican National Arrested for Role in Defrauding Ex-Im Bank
Oswaldo Kuchle-Lopez was indicted on February 10, 2010, by a federal
grand jury in El Paso, Texas, in connection with an alleged scheme to
defraud Ex-Im Bank. Kuchle-Lopez was detained by Customs and Border
Protection officers on February 17, 2010, at the Paso Del Norte Port of Entry
and then arrested by FBI special agents.

According to the indictment, Kuchle-Lopez, with the assistance of co-
conspirators, entered into a $1,997,458.00 loan agreement to purchase
equipment including cement pumper trucks, cement mixer trucks, and dump
trucks in 2004. That loan was insured by Ex-Im Bank, and the loan proceeds
were wired to an account held by Kuchle-Lopez. The indictment alleges that
Kuchle-Lopez signed a letter falsely stating that he had received the
equipment in Mexico. According to the charges, Kuchle-Lopez ceased to
make the required loan payments, resulting in a default that caused Ex-Im
Bank to pay the claim in August 2007.

The indictment further alleges that, in another transaction, Kuchle-Lopez
obtained another Ex-Im Bank guaranteed loan under his Mexican company
known as Rancho Santa Marcela. He obtained this loan through a lender in
the amount of $1,309,688 for the purchase of agricultural equipment. The
proceeds of the loan were to be used to purchase and export goods made in
the United States, which were never exported. The indictment alleges that
this loan also resulted in a default, causing Ex-Im Bank to pay a claim in
October 2007.

The schemes were discovered pursuant to a joint investigation by the Ex-Im
Bank Office of Inspector General, the Federal Bureau of Investigation – El
Paso Field Division, and the U.S. Immigration and Customs Enforcement
office in El Paso.
16   Office of Inspector General


     Mexican National Pleads Guilty to Role in Defrauding Ex-Im
     Bank of Nearly $1 Million

     Pursuant to an ongoing investigation, a Mexican national pleaded guilty on
     December 2, 2009, to participating in a scheme to defraud Ex-Im Bank of
     nearly $1 million. The guilty plea was pursuant to a four-count criminal
     information charging the subject with conspiracy to defraud Ex-Im Bank and
     to commit wire fraud. While attempting to cross the U.S. border into El Paso,
     Texas, the subject was arrested by special agents of Ex-Im Bank OIG and
     the U.S. Immigration and Customs Enforcement on September 8, 2009. In
     the plea, the subject admitted to falsely representing to a lending bank in El
     Paso that the subject was the owner of a nonexistent company. The subject
     applied for a loan of more than $900,000, provided the bank with false
     financial statements for the fictitious company, and falsely represented that
     the loan proceeds were to be used to purchase heavy equipment
     manufactured in the United States. According to the charge, the subject and
     others received the proceeds of the loan and disbursed them for their
     personal benefit. When the subject failed to repay the loan, the loan
     defaulted and the lending bank filed a recoupment claim with Ex-Im Bank.
     Ex-Im Bank paid more than $995,000 to satisfy the guarantee. Sentencing of
     the subject is currently pending.

     The scheme was discovered by Ex-Im Bank OIG agents during a review of
     another ongoing investigative matter, and is being worked in close
     coordination with other law enforcement partners. The plea was part of an
     ongoing investigation concerning suspected fraud in nearly $4.81 million in
     insurance claims paid by Ex-Im Bank.


     Texas Resident Charged with Conspiracy to Commit Fraud
     against Ex-Im Bank

     In a case related to the above matter, a Texas resident pleaded guilty, on
     October 30, 2009, to participating in a scheme to defraud Ex-Im Bank of
     nearly $1.5 million. The plea was pursuant to a two-count criminal
     information charging the subject with conspiracy, wire fraud, and aiding and
     abetting. The subject was arrested on August 20, 2009, pursuant to an
     arrest warrant sought by special agents of Ex-Im Bank OIG. The subject was
     an exporter in three Ex-Im Bank guaranteed loans involving the fraudulent
     export of manufacturing equipment. During 2007, the buyers in Mexico
     defaulted on the loans, causing Ex-Im Bank to pay claims of more than $1.5
     million. The criminal information also charged a criminal forfeiture against
     the subject totaling more than $1 million. The scheme involved the
     fraudulent sale and shipment of U.S. exports to Mexico.
                                             Semiannual Report to Congress       17


Seven Persons Charged for Ex-Im Bank Loan Fraud in Ongoing
Investigation

Pursuant to another ongoing investigation, five persons were indicted and two
more were charged via a criminal information, for their role in a scheme to
defraud Ex-Im Bank. These charges cap ongoing investigative efforts into the
purported sale of U.S. goods to foreign borrowers resulting in the production of
false loan documents, false shipping documents, and the transfer of cash—in
lieu of goods—to foreign borrowers who then default, causing Ex-Im Bank to pay
the claim. This continuing investigation is being worked in close coordination
with other law enforcement partners.

Special Agents Work Collaboratively with Ex-Im Bank to Help
Protect Funds at Risk
To the extent permissible and within the confines and limitations of an
investigation, special agents work collaboratively to share investigative
intelligence with Ex-Im Bank Office of General Counsel, Ex-Im Bank Credit and
Risk Management Division, and Ex-Im Bank Asset Management Division to help
identify fraudulent activity within Ex-Im Bank transactions and to protect taxpayer
funds.

During this reporting period, Ex-Im Bank OIG communicated with Ex-Im Bank
management to enhance the monitoring of several existing transactions and due
diligence reviews of proposed transactions based on developed investigative
leads. For example, the OIG shared active law enforcement intelligence with
Ex-Im Bank on two separate occasions concerning suspected criminal activity by
participants in transactions under review. As a result of information provided,
Ex-Im Bank canceled one insurance policy that was up for renewal and declined
financing in another transaction, resulting in a combined cost savings of
$6,518,958.

Additionally during this reporting period, the OIG has made 80 referrals of
investigative information to the Ex-Im Bank Office of General Counsel
concerning potential fraud and funds at risk.

These efforts are part of the Office of Investigations’ objective to protect funds at
risk concurrent with ongoing criminal investigations, and to enhance Ex-Im
Bank’s capabilities in monitoring, oversight, and civil collection efforts involving
transactions in which fraud is uncovered.
 18      Office of Inspector General


          CROSS-REFERENCE TO REPORTING REQUIREMENTS
                 OF THE INSPECTOR GENERAL ACT
Set forth below are cross-references of the reporting requirements prescribed by the identified
sections of the IG Act to the specific pages in this Semiannual Report where they are addressed.


       CITATION          REPORTING REQUIREMENTS                                             PAGE
                                                                                             Page
      Section 4(a)(2)    Review of legislation and regulations
                                                                                               2

      Section 5(a)(1)    Significant problems, abuses and deficiencies                      None

                         Recommendations with respect to significant problems,
      Section 5(a)(2)                                                                       None
                         abuses and deficiencies

                         Prior significant recommendations on which corrective action       Pages
      Section 5(a)(3)
                         has not been completed                                              7-8

                                                                                             Page
      Section 5(a)(4)    Matters referred to prosecutorial authorities
                                                                                              12

      Section 5(a)(5)    Summary of instances in which information was refused              None

                         List of audit reports by subject matter, showing dollar value of
      Section 5(a)(6)    questioned costs and recommendations that funds be put to          None
                         better use
                                                                                            Pages
      Section 5(a)(7)    Summary of each particularly significant report
                                                                                             3-5

                         Statistical table showing number of reports and dollar value
      Section 5(a)(8)                                                                       None
                         of questioned costs

                         Statistical table showing number of reports and dollar value        Page
      Section 5(a)(9)
                         of recommendations that funds be put to better use                   12
                         Summary of each audit issued before this reporting period for
      Section 5(a)(10)   which no management decision was made by end of                    None
                         reporting period

      Section 5(a)(11)   Significant revised management decisions                           None

                         Significant management decisions with which the Inspector
      Section 5(a)(12)                                                                      None
                         General disagrees
                                              Semiannual Report to Congress   19



Office of Inspector General (OIG) Hotline
Reporting Fraud, Waste, and Abuse
The Inspector General Act of 1978 states that the Inspector
General (IG) may receive and investigate complaints or
information concerning the possible existence of an activity
constituting a violation of law, rules, or regulations, or
mismanagement, gross waste of funds, abuse of authority or
a substantial and specific danger to the public health and
safety.

Whether reporting allegations via telephone, mail, or in
person, the OIG will not disclose the identity of persons
making a report without their consent unless the IG
determines such disclosure is unavoidable during the course
of the investigation.


REPORTING METHODS
You may submit your complaint or information by these methods:

In person:   At the Office of Inspector General
             Export Import Bank of the US
             811 Vermont Avenue, NW
             Washington, D.C. 20571

By Telephone: 1- 888-OIG-EXIM (1-888-644-3946)

By Mail:     Ex-Im Hotline
             Office of Inspector General
             Export Import Bank of the US
             811 Vermont Avenue, NW
             Washington, D.C. 20571

By E-mail:   IGhotline@exim.gov
811 Vermont Avenue, N.W. Suite 978
Washington, DC 20571
Telephone 202.565.3908 - Facimile 202.565.3988
